IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
      FOR THE REVIEW OF THE FEDERAL ACQUISITION
       SERVICE BLANKET PURCHASE AGREEMENTS
    FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
           REPORT NUMBER A090018/Q/A/P10002
                 DATED MARCH 30, 2010
                REPORT NUMBER A110151
                     June 23, 2011
Date:        June 23, 2011

Reply to
Attn of:     Audit Manager, Acquisition Programs Audit Office (JA-A)

Subject:     Implementation Review of the Corrective Action Plan for the
             Review of the Federal Acquisition Service Blanket Purchase Agreements
             for Acquisition Management Support Services, Report Number
             A090018/Q/A/P10002 dated March 30, 2010
             Report Number A110151

To:          Steven J. Kempf, Commissioner, Federal Acquisition Service (Q)


We conducted an implementation review of the corrective actions taken by the General
Services Administration’s (GSA's) Federal Acquisition Service (FAS) in response to the
four recommendations included in the Review of the Federal Acquisition Service
Blanket Purchase Agreements for Acquisition Management Support Services, Report
Number A090018/Q/A/P10002 dated March 30, 2010. The initial review focused on
FAS’s controls over the use of the Blanket Purchase Agreements (BPAs) for Acquisition
Management Support Services (AMSS). It determined if the controls in place were
adequate to reduce the risks associated with the use of AMSS. The review also
included an examination of the BPA task order files to determine if FAS planned and
executed the procurements in accordance with the Federal Acquisition Regulation
(FAR) and the American Recovery and Reinvestment Act of 2009 (Recovery Act)
requirements. Appendix A includes a listing of the four recommendations from the fiscal
year (FY) 2010 review and Appendix B contains a copy of the corresponding action plan
provided by FAS.

Background

In March 2009, FAS awarded three BPAs with a total estimated value of $100 million for
AMSS against the Mission Oriented Business Integrated Services Multiple Award
Schedule. FAS awarded the BPAs in anticipation of the need for additional support to
fulfill acquisition projects across GSA and to support specific projects related to the
Recovery Act. FAS created BPA ordering guidance that outlines FAR and Office of




                      241 18 Street, Suite 607, Arlington, VA 22202-3402
                        Federal Recycling Program   Printed on Recycled Paper
Management and Budget provisions for mitigating the risks associated with AMSS. 1 The
BPA ordering guidance also incorporated reporting requirements related to the
Recovery Act.

Objective, Scope, and Methodology

The objective of this implementation review was to determine whether FAS has taken
appropriate corrective action as outlined in the June 16, 2010 action plan for the Review
of the Federal Acquisition Service Blanket Purchase Agreements for Acquisition
Management Support Services, Report Number A090018/Q/A/P10002.

To accomplish our objective, we:

    •   Reviewed the applicable action plan from GSA's Internal Control and Audit
        Division's audit tracking system;
    •   Evaluated the AMSS ordering guide dated June 2010, to determine if the action
        plan steps had been completed and if our recommendations were adequately
        addressed;
    •   Obtained copies of task order reviews held during FY 2011;
    •   Reviewed Procurement Information Notice 2011-04 dated January 21, 2011,
        FAS emails, and other procurement documentation used to satisfy the action
        plan; and
    •   Reviewed applicable FAR subparts to determine if the actions taken met FAR
        requirements.

We conducted this implementation review during May 2011.

Results of Review

The results of our implementation review indicate that FAS has taken appropriate
corrective actions to address the recommendations in the subject report. Specifically,
we found that the changes made to the AMSS ordering guide supplement BPA
guidance to assist in reducing the risks associated with AMSS. In addition, FAS has
taken the required actions to ensure that BPA guidance is monitored for effectiveness,
the BPA file is adequately documented, and FAR 8.405-3(a)(1) will be adequately
considered in future BPA awards to provide FAS the best solution at the best price. We
determined that no further action is necessary to address our recommendations.

Internal Controls

This review was limited in scope in order to answer the objective of this review. Thus,
our assessment and evaluation of internal controls was limited to those issues identified
in the subject report.



1
 Ordering activities that rely on contractors to assist in acquisition-related work face an increased risk of
contractors performing inherently governmental work and conflicts of interest.
                                                      2
We would like to commend you and your staff for implementing timely corrective actions
in response to our recommendations. If you have any questions regarding this review,
please contact me at (816) 926-8605.

signed


Michelle L. Westrup
Audit Manager
Acquisition Programs Audit Office




                                          3
APPENDIXES
        IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
          FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
                    BLANKET PURCHASE AGREEMENTS
            FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
                  REPORT NUMBER A090018/Q/A/P10002
                         DATED MARCH 30, 2010
                        REPORT NUMBER A110151

                                     APPENDIX A

             REPORT RECOMMENDATIONS FOR A090018/Q/A/P10002

Recommendations from the Review of the Federal Acquisition Service Blanket
Purchase Agreements for Acquisition Management Support Services,
Report Number A090018/Q/A/P10002 dated March 30, 2010

We recommend that the Commissioner, Federal Acquisition Service:

   1. Supplement the BPA ordering guidance by:

       a.   Adding to Section 2.1 of the Acquisition Management Support Services
            Contracting Officer Ordering Guide the requirement to develop a statement
            of work at the order level, as outlined in the Sample Acquisition
            Management RFQ and prescribed in FAR Subpart 8.405-2(b);

       b.   Adding more specific guidance in Section 2.4 of the Acquisition
            Management Support Services Contracting Officer Ordering Guide to aid
            ordering activities on determining the appropriate ratios of contractor
            employees to government employees when acquiring AMS services;

       c.   Clarifying in Section 4.3 of the Acquisition Management Support Services
            Contracting Officer Ordering Guide ordering activity requirements defined in
            FAR Subpart 8.405-2(d). Specifically, the ordering guide should indicate
            that the ordering activity contracting officer is responsible for making a
            written determination that the total price of the task order is fair and
            reasonable based on an evaluation of the contractor’s proposal;

       d.   Considering the addition of references to FAR Subpart 7.503, which
            addresses inherently governmental work, and FAR Subpart 9.5, which
            addresses organizational conflicts of interest.

   2. Develop and implement a plan to monitor the effectiveness of the BPA ordering
      guidance and improve the guidance as necessary.

   3. Ensure that the BPA file contains sufficient explanation of how the shift in
      acquisition strategy will save time and contracting resources.




                                          A-1
     IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
       FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
                 BLANKET PURCHASE AGREEMENTS
         FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
               REPORT NUMBER A090018/Q/A/P10002
                      DATED MARCH 30, 2010
                     REPORT NUMBER A110151

4. Ensure that future BPA awards reflect consideration of the factors listed in FAR
   Subpart 8.405-3(a)(1) when determining the number of BPAs to establish for
   BPA awards.




                                      A-2
        IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
          FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
                    BLANKET PURCHASE AGREEMENTS
            FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
                  REPORT NUMBER A090018/Q/A/P10002
                         DATED MARCH 30, 2010
                        REPORT NUMBER A110151

                                  APPENDIX B

                    ACTION PLAN FOR A090018/Q/A/P10002

Action Plan for the Review of the Federal Acquisition Service Blanket Purchase
Agreements for Acquisition Management Support Services, Report Number
A090018/Q/A/P10002 dated June 16, 2010




                                      B-1
IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
  FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
            BLANKET PURCHASE AGREEMENTS
    FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
          REPORT NUMBER A090018/Q/A/P10002
                 DATED MARCH 30, 2010
                REPORT NUMBER A110151




                        B-2
IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
  FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
            BLANKET PURCHASE AGREEMENTS
    FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
          REPORT NUMBER A090018/Q/A/P10002
                 DATED MARCH 30, 2010
                REPORT NUMBER A110151




                        B-3
IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
  FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
            BLANKET PURCHASE AGREEMENTS
    FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
          REPORT NUMBER A090018/Q/A/P10002
                 DATED MARCH 30, 2010
                REPORT NUMBER A110151




                        B-4
         IMPLEMENTATION REVIEW OF THE CORRECTIVE ACTION PLAN
           FOR THE REVIEW OF THE FEDERAL ACQUISITION SERVICE
                     BLANKET PURCHASE AGREEMENTS
             FOR ACQUISITION MANAGEMENT SUPPORT SERVICES
                   REPORT NUMBER A090018/Q/A/P10002
                          DATED MARCH 30, 2010
                         REPORT NUMBER A110151

                                      APPENDIX C

                                REPORT DISTRIBUTION

Commissioner, Federal Acquisition Service (Q)

Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Assistant Inspector General for Investigations (JI)

Deputy Assistant Inspector General for Acquisition Audits (JA-A)




                                            C-1
